OIG Audit Report GR-50-08-003

Office of Justice Programs, Office of Juvenile Justice and Delinquency Prevention Grant Administered by the Boys and Girls Home Residential Treatment Center, Incorporated, Sioux City, Iowa

Audit Report GR-50-08-003


February 2008
Office of the Inspector General


Executive Summary


 The Department of Justice (DOJ) Office of the Inspector General, Audit Division, has completed an audit of the Community Based Juvenile Justice Programming grant awarded by the Office of Justice Programs (OJP), Office of Juvenile Justice and Delinquency Prevention, to the Boys and Girls Home Residential Treatment Center, Incorporated (Boys and Girls Home), located in Sioux City, Iowa. The main purpose of the grant was to provide after-school programming to at-risk youth, teach them pro-social and useful skills, and keep them out of the juvenile justice system. The Boys and Girls Home was awarded $468,656 under grant number 2005‑JL‑FX‑0239. We tested the Boys and Girls Home ’s accounting records to determine if reimbursements claimed for costs under the grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant; as well as to evaluate program performance and accomplishments.
 The objective of our audit was to review performance in the following areas: (1) accounting and internal controls; (2) budget management and control; (3) grant drawdowns; (4) grant expenditures, including personnel and indirect costs; (5) program performance and accomplishments; and (6) financial status and progress reports. We determined that indirect costs, matching funds, property management, and program income were not applicable to this grant. 
As of July 10, 2007, the grantee had received the full award amount of $468,656, of which we performed detailed testing of $182,333, or 39 percent of the funds received. We examined the Boys and Girls Home accounting records, financial and progress reports, and operating policies and procedures and found:

Salary and fringe benefits totaling $63,245 were not adequately supported because the grantee did not maintain sufficient records of employee activity and did not sufficiently document its methodology for allocating salary costs among various funding sources as required by OMB Circular A-122. 
 The grantee billed $2,675 in depreciation to the grant. Because depreciation was not an approved grant expense, we question these costs. 
The Boys and Girls Home did not competitively bid for a sole-source contract in excess of $100,000, as required by OJP Guidelines.
 Due to inconsistencies within the program narrative, the actual number of at-risk youth expected to be served by completing the program run by the sub-grantee was not clearly established and we could not determine if the program accomplished its goals. 
 Required Financial Status Reports and Progress Reports were generally accurate and timely submitted. However, prior to our review, all Progress Reports overstated the number of students being served because the reports did not identify unique individuals. As a result, youth that attended and successfully repeated the course several times were counted as multiple students. 

 Our report contains 3 recommendations to address the preceding issues, which are discussed in detail in the Findings and Recommendations Section of the report. Our audit objective, scope, and methodology appear in Appendix I of the report. 







Return to OIG Home Page